No. 20-826

In the Supreme Court of the United States
MIKE BROWN, ACTING WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE
The undersigned certifies that on June 10, 2021, she e-served the Brief of
Petitioner, Joint Appendix Volume I, II, and III, and a certificate of compliance by efiling and e-mailing same to the email address provided:
•

Tasha J. Bahal, Tasha.Bahal@wilmerhale.com

Paper copies will be served by Cockle Legal Briefs upon:
Counsel of Record for Respondent:
Tasha Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com
/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

231 I Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

l -800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www .cocklelegalbriefs.com

No. 20-826
MIKE BROWN, ACTING WARDEN, PETITIONER
v.
ERVINE DAVENPORT
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of June, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF FOR PETITIONER, JOINT APPENDIX AND
STATEMENT OF COST in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:

Dana Nessel
Michigan Attorney General
FadwaA. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF 1@michigan.gov
(517) 335-7628

Jared Schultz
Assistant Attorney General
Criminal Trials & Appeals Div.
Attorneys for Petitioner

Subscribed and sworn to before me this l 0th day of June, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL NOTARY-State of NIIJraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Affiant

40913

Counsel for Respondent
Tasha Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com

